IN THE SUPREME COURT OF THE UNITED STATES

IN RE GARNER, JOY, ET AL.
Petitioner
vs.

No:

21-0300

WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

BRIAN H. FLETCHER
Acting Solicitor General
Counsel of Record
September 29, 2021
cc:
GREGORY JAMES GLASER
GREG GLASER, ATTORNEY AT LAW
4399 BUCKBOARD DRIVE
#423
COPPEROPOLIS, CA 95228
RAY L. FLORES II
11622 EL CAMINO REAL
SUITE 100
SAN DIEGO, CA 92130

